  OFFICE OF THE INSPECTOR GENERAL
  CORPORATION FOR NATIONAL AND
        COMMUNITY SERVICE




          Pre-Audit Survey of the
         Points of Light Foundation
Grant Numbers 0 1POLDC002 and 0 1POLDC003

      OIG Audit Report Number 02-26
              June 2 1.2002




               Prepared by:

                 CNCS OIG
          120 1 New York Avenue
          Washington, DC 20525
                                      Pre-Audit Survey of the
                                     Points of Light Foundation
                            Grant Numbers 0 1POLDC002 and 0 1POLDC003

                                                   Table of Contents



OVERVIEW OF POINTS OF LIGHT FOUNDATION .....................................................2

BACKGROUND OF THE POINTS OF LIGHT FOUNDATION ......................................
                                                                                 2

OBJECTIVES. SCOPE. AND METHODOLOGY .............................................................3

RESULTS ............................................................................................................................
                                                                                                                              4
Office of Inspector General                                                              CORPORATION
1201 New York Avenue, NW
                                                                                         FOR NATIONAL
Washington, DC 20525




   June 2 1,2002




   Peg Rosenberry, Director, Office of Grants Management
   Corporation for National and Community Service
   1201 New York Avenue
   Washington, DC 20525

    We performed a pre-audit survey of the Points of Light Foundation, Grant Numbers
    0 1POLDC002 and 01POLDC003. The primary purpose of this survey was to provide a
    preliminary assessment of:

        The grant awards and terms;
        Findings from the most recent A- 133 audit;
        Fiscal or program issues raised by CNCS site visits.

    We were also to report on the recommended scope of additional audit procedures to be
    performed at the Grantee.

    Overview of the Points of Light Foundation

    The Points of Light Foundation is a nonprofit organization whose mission is to engage
    more people more effectively in volunteer community service to help solve serious social
    problems. The Foundation is based in Washington, DC, and works in communities
    throughout the United States through a network of over 500 Volunteer Centers.

    Background

    The National and Community Service Trust Act of 1993, P.L. 103-82, which amended
    the National and Community Service Act of 1990, established the Corporation for
    National and Community Service.

    The Corporation, pursuant to the authority of the Act, awards grants and cooperative
    agreements to State Commissions, nonprofit entities and tribes and territories to assist in
    the creation of full and part time national and community service programs. Through
    these grantees, members perform service to meet the educational, human, environmental,
    and public safety needs throughout the nation, especially addressing those needs related to
poverty. In return for this service, eligible members receive a stipend, accident insurance,
personal liability insurance and automobile insurance, free meals at host institutions and
physical examinations.

On May 2 1, 1990, The Points of Light Foundation was incorporated in Delaware as a
nonprofit organization. The National and Community Service Act of 1990 authorized an
initial grant to the Points of Light Foundation, with subsequent annual grants conditioned
upon compliance by the Foundation with statutory requirements (e.g., use of funds,
reporting). The National and Community Service Trust Act of 1993, which amended the
1990 Act) left unchanged most of the provisions relevant to the Foundation but gave
CNCS specific authority to determine the Foundation's on-going ability to carry out the
activities to be supported with Federal assistance.

The mission of the Points of Light Foundation is to:

        1) encourage every American and every American institution to help solve our
           most critical social problems by volunteering their time, energies and
           services through community service projects and initiatives;
        2) identify successful and promising community service projects and
           initiatives, and to disseminate information concerning such projects and
           initiatives to other communities in order to promote their adoption
           nationwide; and
        3) discover and encourage new leaders and develop individuals and
           institutions that serve as strong examples of a commitment to serving others
           and to convince all Americans that a successful life includes serving others.

Objectives, Scope, and Methodology

The engagement scope was to assess the grant and site visit information and systems and
procedures in place at the Corporation's headquarters as well as the Corporation's
monitoring of the Grantee's fiscal activity. The primary purpose of this pre-audit survey
was to provide a preliminary assessment of:

    The amount, term and grant provisions;
    The results of A- 133 audits;
    Results of CNCS site visits.

We were also to report on the recommended scope of additional audit procedures to be
performed at the Grantee.

Our survey included the following procedures:

    reviewing the grant award, its provisions, the detailed grant proposal and budget;

    reviewing OMB Circular A- 133 reports and;
   obtaining information from site visits and from discussion with CNCS Grants
   Management Office.

Our procedures were performed in accordance with Government Auditing Standards
issued by the Comptroller General of the United States. We were not engaged to, and (
not, perform an audit of any financial statements, and the procedures described above
were not sufficient to express an opinion on the controls at the Grantee, or on its
compliance with applicable laws, regulations, contracts and grants, or the allowability of
grant costs incurred. Accordingly, we do not express an opinion on any such financial
statements, or on the Grantee's controls or compliance. Had we performed additional
procedures, other matters might have come to our attention that would have been
reported.

Results

Based on the results of the limited procedures performed, we will proceed with a review
of the Arthur Anderson audit work performed on internal control and compliance
requirements in accordance with OMB Circular A-133. This audit included the Points Of
Light Grant No. 0 1POLDC003 as a major program. If the work performed by the
independent Auditor is not sufficient we will audit the grant costs and compliance with
grant provisions. In addition, we recommend a limited scope audit of the 2001
cooperative agreement (Grant No. 0 1POLDC002) to support the 200 1 National
Community Service Conference.

This report is intended solely for the use of the Office of Inspector General and the
Corporation for National and Community Service.




~e~ Bathen
Acting Inspector General
Corporation for National and Community Service
Washington, D.C.




Copy to:

Wendy Zenker, Chief Operating Officer
Gary Kowalczyk, Director, Planning & Program Integration
Dana Rodgers, Program Officer
